Tr

OCKLE Sie

street :
SING NY Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923

Web Site

1-800-225-6964
www.cocklelegalbriefs.com.

(402) 342-2831
Fax: (402) 342-4850

No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

v.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN
SUPPORT OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2986 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and swom to before me this 4th day of June, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

eerraee| Kevse. 0. Lao Ondene be Ohl

My Comm. Exp. September 5, 2023
Notary Public Affiant 39687
